CERTIFICATE OF SERVICE
I, Jun Xiao, hereby certify that one unbound and 40
copies of the foregoing Supplemental Petition for a Writ of
Certiorari in Jun Xiao (Petitioner) v. Regents of the
University of Minnesota, et al. (Respondents) were sent via
post office service, and two copies were sent via first class
mail to the following parties listed below, this 6th day of
February, 2020.
Doughlas Peterson & Dan Herber
Office of General Counsel University of Minnesota
200 Oak Street, SE. Suite 360
Minneapolis, MN 55455-2006
All parties required to be served have been served. I
declare under penalty of perjury that the fore going is true
and correct. This Certificate is executed on February 6, 2020.

Jun Xiao
/
231 North Ave.
^
Battle Creek, MI 49017
(248)568-6037
jxccny@yahoo.com

o

V *
- I

- 7%

RECEIVED
FEB 1 1 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

<

c .

V'

7 >

WANDA R GRAVES
Notary Public - Michigan
Calhoun County
My Commission Expires Oct 28, 2(020
Acting in the County of fl/i {f luQkf\

>
>

